<html>
<title> - HEARING ON PROTECTING AND RESTORING AMERICA'S GREAT WATERS, PART II: THE COLUMBIA RIVER AND SAN FRANCISCO BAY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






       PROTECTING AND RESTORING AMERICA'S GREAT WATERS, PART II:
                THE COLUMBIA RIVER AND SAN FRANCISCO BAY

=======================================================================

                               (111-107)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 28, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
56-290 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)



            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland Vice      Carolina
Chair                                TODD RUSSELL PLATTS, Pennsylvania
SOLOMON P. ORTIZ, Texas              BILL SHUSTER, Pennsylvania
PHIL HARE, Illinois                  MARIO DIAZ-BALART, Florida
DINA TITUS, Nevada                   CONNIE MACK, Florida
HARRY TEAGUE, New Mexico             LYNN A WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   CANDICE S. MILLER, Michigan
Columbia                             ROBERT E. LATTA, Ohio
MICHAEL E. CAPUANO, Massachusetts    ANH ``JOSEPH'' CAO, Louisiana
GRACE F. NAPOLITANO, California      PETE OLSON, Texas
MAZIE K. HIRONO, Hawaii
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
BOB FILNER, California
CORRINE BROWN, Florida
JOHN GARAMENDI, California
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Blumenauer, Honorable Earl, a Representative in Congress from the 
  State of Oregon................................................     4
Dingfelder, Jackie, Senator, Oregon State Senate.................    15
Gioia, John, Chair, Contra Costa County Board of Supervisors.....    15
Hastings, Honorable Doc, a Representative in Congress from the 
  State of Washington............................................     4
Kelly, Judy, Executive Director, San Francisco Estuary 
  Partnership....................................................    15
Lumley, Paul, Executive Director, Columbia River Inter-Tribal 
  Fish Commission................................................    15
Marriott, Debrah, Executive Director, Lower Columbia River 
  Estuary Partnership............................................    15
Speier, Honorable Jackie, a Representative in Congress from the 
  State of California............................................     4
Stoner, Nancy, Deputy Assistant Administrator, Office of Water, 
  U.S. Environmental Protection Agency...........................     9
Wunderman, Jim, President and Chief Executive Officer, Bay Area 
  Council........................................................    15

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    35
McMorris Rodgers, Hon. Cathy, of Washington......................    36
Mitchell, Hon. Harry, of Arizona.................................    37

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Blumenauer, Hon. Earl............................................    38
Dingfelder, Jackie...............................................    44
Gioia, John......................................................    46
Hastings, Hon. Doc...............................................    52
Kelly, Judy......................................................    54
Lumley, Paul.....................................................    60
Marriott, Debrah.................................................    66
Speier, Hon. Jackie..............................................    78
Stoner, Nancy....................................................    80
Wunderman, Jim...................................................    90

                       SUBMISSION FOR THE RECORD

Blumenauer, Hon. Earl, a Representative in Congress from the 
  State of Oregon, supplement to testimony.......................    41

                        ADDITIONS TO THE RECORD

Bay Area Council, Jim Wunderman, President and Cheif Executive 
  Officer, letter to Representative Speier.......................    98
City of Portland Oregon, Sam Adams, Mayor, Amanda Fritz, 
  Commissioner, Nick Fish, Commissioner, Dan Saltzman, 
  Commissioner, Randy Leonard, Commissioner, letter to 
  Representative Blumenauer......................................    99
Confederated Tribes and Bands of the Yakama Nation, Harry 
  Siniskin, Chairman, written testimony..........................   101
County of Sonoma Board of Supervisers and the Sanoma Water 
  Agency, Efren Carrillo and Shirlee Zane, Directors, written 
  testimony......................................................   107
Restore America's Estuaries, Jeff Benoit, President and Cheif 
  Executive Officer, leter to Representative Speier..............   111
San Fransisco Estuary Partnership, Strategic Plan for 2010-2012..   113
Save the Bay, David Lewis, Executive Director, letter to 
  Representative Speier..........................................   137
State of Oregon, Thodore R. Kulongoski, Governor, letter to 
  Chairman Oberstar..............................................   138

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 HEARING ON PROTECTING AND RESTORING AMERICA'S GREAT WATERS, PART II: 
                THE COLUMBIA RIVER AND SAN FRANCISCO BAY

                              ----------                              


                       Wednesday, April 28, 2010,

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:00 p.m. in 
room 2167, Rayburn House Office Building, the Honorable Grace 
F. Napolitano [acting Chair of the Subcommittee] presiding.
    Present: Representatives Napolitano, Boozman and Taylor.
    Mrs. Napolitano. Good morning, ladies and gentlemen.
    Today's hearing is on the current state of water quality 
and the ecological health of two of America's great water 
bodies, the Columbia River and the San Francisco Bay.
    This is the second hearing we have had in this Congress 
about our great waters, and I am very pleased the Subcommittee 
will receive oral testimony from Congressman Earl Blumenauer; 
from Congressman Doc Hastings; and from Congresswoman Jackie 
Speier; from the Environmental Protection Agency; the Lower 
Columbia River Estuary Partnership; the San Francisco Estuary 
Partnership; and the other stakeholders from the Columbia River 
and the San Francisco Bay regions.
    The Chairwoman will be with us shortly. She is detained in 
another Committee, so I will read part of the statement that 
she had prepared. It goes as follows:
    As I stated in my first hearing, my District in Dallas, 
Texas possesses neither coasts nor estuaries, but I continue to 
strongly believe that it is important for this Subcommittee to 
hold hearings on these issues because our Nation's coasts and 
oceans provide a wealth of resources for the entire Country.
    Amongst these areas, nowhere is more valuable than our 
estuaries. Estuaries are the bodies of water that receive both 
fresh water from the rivers and salt water from the sea. This 
mix of water makes for a unique environment that is extremely 
productive in terms of its ecosystem values. Estuaries are rich 
in plant life, coastal habitat, and living species.
    The ecological productivity of these regions translates 
directly into economic productivity. It seems to me that a 
central problem in the protection and restoration of the 
estuaries is that they ultimately lie downstream from all. 
Everything that enters the smallest stream, tributary or 
headwater in the watershed eventually runs into an estuary, 
impacting in some way all the biological elements of that 
ecosystem and all of the commerce that revolves about it.
    I am interested in hearing how the lower Columbia River 
Estuary Partnership and the San Francisco Estuary Partnership 
have addressed pollution issues in their respective regions, 
and what actions they propose to be addressed in the future.
    I would imagine that in order to restore and protect any 
large water system like these estuaries, there needs to be a 
coordinated effort between the Federal, the State and the local 
governments, as well as all stakeholders in that region. The 
Federal Government alone cannot restore water quality and 
protect our Nation's great waters. Rather, proper watershed 
management and estuarine protection must be a process that 
involves all levels of government and all manner of 
stakeholders.
    The Federal Government does indeed have a role to play. 
However, only through the active involvement of all levels of 
government will we be able to restore and protect our coast and 
estuaries.
    I look forward to hearing the witnesses' thoughts on the 
initiatives used to date to address pollution in the Columbia 
River and the San Francisco Bay, as well as ideas on future 
action and tools we can apply towards finally cleaning up these 
great bodies of water.
    That is her statement.
    I am Chair of the Subcommittee on Water and Power and I 
could not agree more. We have delved in a lot of these issues 
of pollution of our canals, our waters, and our streams, and we 
will need to work together. I am proposing that we do some 
joint hearings to be able to ensure further protection and 
ensure further assistance, not only from the Federal 
Government, but in partnership with all the stakeholders.
    So I am very, very happy to be here today and be Acting 
Chair.
    We welcome all the witnesses and I yield to Ranking Member 
of the Subcommittee, Mr. Boozman, for any comments he may have.
    Mr. Boozman. Thank you, Madam Chair.
    The Subcommittee is meeting today to hear testimony on two 
water bodies that are part of the National Estuary Program, the 
Columbia River and the San Francisco Bay. Estuaries are unique 
and highly productive waters that are important to the 
ecological and economic base of our Nation.
    Fisheries, wildlife, recreation and tourism are heavily 
dependent on healthy estuary systems. Yet, despite their value, 
most estuaries in the United States are experiencing stress 
from physical alteration and pollution, often resulting from 
development and rapid population growth in our coastal areas.
    The National Estuary Program identifies nationally 
significant estuaries that are threatened by pollution, land 
development and overuse, and provides grants to support 
development of management plans to protect and restore them. 
The program is designed to resolve issues at a watershed level, 
integrate science into the decision-making process, foster 
collaborative problem-solving, and involve the public.
    Unlike many other EPA and State programs that rely on 
conventional top down regulatory measures to achieve 
environmental goals, the National Estuary Program uses a 
framework that focuses on stakeholder involvement and 
interaction in tailor solutions for problems that are specific 
to that region in order to achieve estuarine protection and 
restoration goals.
    Currently, the Columbia River and San Francisco Bay are two 
of the 28 estuaries in the National Estuary Program, and both 
are implementing restoration plans developed at the local level 
through a collaborative process. We need to be sure that the 
individual estuary programs continue to effectively implement 
their management plans for protecting and restoring estuaries. 
We need to be careful not to add new layers of programmatic 
bureaucracy on the programs that could divert valuable 
resources away from implementing their plans.
    These are ecological treasures we are discussing today. It 
is clear from the testimony from the witnesses that progress 
has been made in the Columbia River and San Francisco Bay. 
However, at this unique time in our Nation's history, we should 
not just be careful in what we fund, but also in what we 
authorize.
    Each of these two estuaries has a corresponding bill that 
has been referred to this Committee. Each bill amends the 
National Estuary Program in the Clean Water Act and creates a 
separate program for funding the specific estuary. As this is 
not a legislative hearing, we are only going to hear from a few 
witnesses today. However, I would suggest that should we decide 
to move forward on the bills, and any bills that come before 
the Committee, that we hold a legislative hearing to more 
closely examine the issues in our jurisdiction.
    I look forward to the testimony of our witnesses today and 
learning more about the progress that is being made in the two 
estuaries.
    And with that, I yield back.
    Mrs. Napolitano. Thank you, sir.
    Our first panel this morning includes three of our 
colleagues from the House of Representatives. Our first witness 
is Congressman Doc Hastings. Welcome, sir, I am glad to be 
working with you.
    Next, Congressman Earl Blumenauer, who is a former Member 
of this Committee, who will also testify. I am happy to welcome 
him back to this room.
    Our next witness is also a Member of Congress, 
Congresswoman Speier, a new Member of Congress, but who has 
gained a very solid reputation for defending and protecting San 
Francisco Bay. And welcome.
    As is tradition of this Committee, there will be no 
questions of the Members after their testimony. And with that, 
Congressman Hastings, please proceed.
    Mr. Hastings. Madam Chair, I wonder if I could just give 
deference to the sponsor of the legislation, Mr. Blumenauer. I 
am more than happy to go first, and I appreciate that, but he 
is the sponsor of the legislation.
    Mrs. Napolitano. You yield to him, sir? It is your 
prerogative.
    Mr. Hastings. Well, I will yield my time as long as he will 
yield me his time.
    [Laughter.]

TESTIMONY OF THE HONORABLE EARL BLUMENAUER, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF OREGON; THE HONORABLE DOC HASTINGS, 
A REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON; THE 
HONORABLE JACKIE SPEIER, A REPRESENTATIVE IN CONGRESS FROM THE 
                      STATE OF CALIFORNIA

    Mr. Blumenauer. Thank you, Doc.
    Madam Chair, Ranking Member, I deeply appreciate your 
allowing us to be here today, and I want to strongly echo my 
support for the concepts that both of you had in your opening 
statements. I think you got it right.
    I want to particularly reference the Columbia River, which 
is important to the economy and ecology not just of my State, 
but really to the entire Nation. It is the largest river in the 
Pacific Northwest, the fourth largest river in the Country by 
volume. It has a drainage area that extends to seven States and 
Canada, and includes all or part of five national parks.
    The Columbia was traditionally the largest salmon-producing 
river system in the world, and the salmon are still an integral 
part of the culture and livelihood of many people in the 
region, some of whom you will hear from today.
    The Columbia River Basin also includes more than 6 million 
acres of irrigated agriculture land, and its hydroelectric dams 
produce more power than any other in a North American river. 
There are approximately 8 million people who live in the Basin 
and depend upon its resources.
    The EPA recognized the importance of the river to the 
Nation when it named the Lower Columbia River estuary ``an 
estuary of national significance'' in 1995, and the Basin, ``a 
large aquatic ecosystem'' in 2006. But it has never really been 
funded persuant to these designations, which is the reason for 
the parallel legislation that we have introduced.
    For too long, sadly, we have treated the river like a 
machine. As a result, much of it is degraded. In the last 100 
years, wildlife habitat in the Lower Columbia River has 
decreased by as much as 75 percent. Many of the once plentiful 
salmon runs are now listed as endangered or threatened under 
the Endangered Species Act.
    In addition to the loss of habitat, the Columbia suffers 
from toxic contamination, including significant levels of 
dioxin, PCBs, heavy metals and other toxic chemicals, the 
result of human activities over the last 150 years. And I think 
my friend, Mr. Hastings, even makes some comment about 
radioactive activity in the Basin. He has been a leader in 
trying to lead the Federal Government to deal with that 
problem.
    The problems persist today as a result of continued 
industrial waste, stormwater runoff, sewer overflows and 
discharge water contaminated with new chemicals, including 
flame retardants, pharmaceuticals, and personal care products. 
These contaminants impair the growth, health and reproduction 
of salmon, eagles and other fish and wildlife. They present a 
threat not only to the ecosystem of the Basin, but to the 
humans who depend upon it.
    The EPA has detected the presence of 92 priority pollutants 
in fish that are consumed by humans. And a fish consumption 
survey I believe you will hear about in more detail showed that 
Native American tribal members eat six to 11 times more fish 
than the EPA's estimated national average. This means that 
toxic contamination of the river is putting tribal members at 
risk.
    Unfortunately, the existing Federal investments in this 
area are not on a scale necessary to implement sustained 
monitoring or make significant progress towards reducing 
toxins. Despite being a major priority of the EPA's work in the 
Basin, toxics reduction receives very little funding.
    That is why I, along with Committee Member Brian Baird and 
other Members of the Oregon and Washington delegations have 
introduced this Columbia River Restoration Act to provide EPA 
and the stakeholders in the region with funding to identify, 
understand and reduce contaminant sources, expand toxics 
reduction activities, and coordinate toxics efforts with 
habitat restoration. Senator Merkley has introduced companion 
legislation in the Senate.
    This Act establishes a program team within the Oregon 
Operations Office of the regional EPA. The team will assist, 
support and coordinate implementation of toxic reduction and 
habitat restoration efforts on the river. The bill would 
provide resources to successful structures that are already in 
place, such as the Lower Columbia River Estuary Partnership 
without duplicating efforts.
    EPA's most recent strategic plan, which designated the 
Columbia River Basin as a large aquatic ecosystem included a 
goal to ``protect, sustain or restore the health of people, 
communities and ecosystems, using integrated and comprehensive 
approaches and partnerships.'' This legislation captures that 
goal.
    The bill will ensure that the billions, billions with a B, 
we are currently spending to protect and restore endangered 
salmon runs on the river are being used efficiently. And we are 
not just saving salmon to have them swim in a toxic river.
    Efforts to clean up the Columbia Basin are complicated by a 
Superfund site in one of its tributaries, important industries 
along the river, navigation traffic, an economically important 
fishery in ESA-listed species. But the EPA set up the Large 
Aquatic Ecosystem Program to make progress on exactly these 
types of complex water management challenges.
    The bill will help the Federal Government be a better 
partner to local communities by supporting non-regulatory 
community-based programs that will achieve results, focusing on 
on the ground activities driven by local communities, with 
coordination and technical support and base funding coming from 
the Federal Government.
    By embracing this legislation, this Committee has an 
opportunity to contribute to the restoration of a nationally 
significant river. It is not just about conserving the 
environment. It is a public health issue, an economic issue, an 
environmental justice issue. The bill will also create jobs. 
Restoration projects will employ technicians, maintenance 
specialists, construction engineers, laborers, biologists and 
contractors. This is important to a State like ours with an 
unemployment rate that is in the double digits.
    I hope the Committee will work with us to move this 
legislation through the process quickly so we can begin this 
important work as soon as possible.
    Thank you very much.
    Mrs. Napolitano. Thank you, Congressman.
    And now we will hear from Doc Hastings.
    Mr. Hastings. Thank you, Madam Chairman. I appreciate this. 
And Ranking Member Boozman, thank you for allowing me to be 
here to put my thoughts in order.
    In 1995, the Lower Columbia Estuary System was put in place 
as part of one of the 28 estuaries worldwide. And I applaud the 
work that they are doing. It is a public-private partnership 
between Washington and Oregon, with 28 cities and other 
entities involved.
    Since 1999, this plan that was implemented specifically 
defining estuaries as ``the area where the fresh water of the 
river meets the salt water of the ocean.'' And I point that out 
because this occurs about 146 miles from the Columbia River. 
Nevertheless, the partners management plan covers an area up to 
Bonneville Dam. That is 146 miles from the river. I totally 
agree with the work that they are doing in that area because I 
think it is connected.
    And while I appreciate the good intentions that are part of 
this bill, I must say that I have great concerns about what the 
scope of the bill does because the bill proposes to greatly 
expand the scope and management of the Columbia River beyond 
the estuary that I just talked about.
    For example, it will impact 500 miles of the Columbia River 
and its tributaries in my District alone. It also impacts above 
Bonneville Dam, 745 miles to the Canadian border. That is far 
removed from the estuary. In that area, there are 11 major 
Federal and non-Federal dams. There is a national monument. 
There is the Hanford Project that Mr. Blumenauer alluded to, 
and there are 600,000 acres of irrigated farmland that is 
irrigated by the Columbia River.
    So this has a huge impact in my District, but also goes 
beyond that to the Snake River in Washington and Idaho. There 
is a $10 billion economic impact from just commerce coming down 
that part of the river, and the tributaries of the Columbia and 
the Snake that goes to Eastern Washington, Oregon, Idaho, 
Montana, Wyoming, parts of Nevada and Utah. In other words, 
this goes far beyond the estuary as defined by the group.
    Now, I have to say, this expansion should not be minimized 
or understated. So as we move through on this bill and talk 
about this, I would like to say something that I am very 
concerned about. And that is that I was not contacted by the 
sponsors of this bill until the day before this bill was 
introduced.
    Now, I regret that because we in the Northwest have worked 
very closely on a lot of pieces of legislation that impact all 
of us, and I would have at least like to have had the courtesy 
to say, okay, this is what is being contemplated. And that 
simply was not the case.
    Now, let me be clear. I would support legislation that 
focuses on the Columbia River estuary. I want to make that 
absolutely clear. I have no problem with that. But when we 
greatly expand this, we ought to see exactly what the 
consequences of this bill are. For example, this bill is silent 
on litigation that is being involved in the whole Columbia 
River. And I might add, the Columbia River is probably the most 
litigated river in the United States.
    This bill also makes reference, giving EPA the authority to 
I guess have authority over issues that are given to other 
Federal agencies, like NOAA, like the Corps of Engineers, like 
Bonneville Power, like the U.S. Fish and Wildlife Service, like 
the Bureau of Reclamation, and like the Department of Energy.
    In other words, the bill as it is written could destroy, 
from my point of view, the collaboration that is going on among 
these agencies. And I think that is something that needs to be 
addressed very specifically.
    Furthermore, and let me just be very specific, section 
123(b) would authorize the EPA Administrator to establish, ``a 
Columbia River program team'' led by a team leader ``designated 
to coordinate all the functions or several functions, including 
the Endangered Species Act.''
    Now, I am the Ranking Member on the Committee on Natural 
Resources. We have authority on that, and I think that our 
Committee ought to have the ability to review what potential 
that would have.
    So Madam Chair, I just want to make this point. I support 
the Estuary Program. This bill as written greatly, greatly as 
it relates to the Columbia River, expands that scope, and not 
only to the Columbia River, but to all the tributaries, as I 
pointed out.
    And one last point that I think needs to be taken into 
consideration, because you are hearing two bills today. This 
bill alone authorizes $40 million, which is more than is 
authorized for all of the Estuary Programs in this Country 
combined.
    So as this legislation moves forward, if it moves forward, 
I would certainly hope that there is coordination and 
correspondence and talk among those Members that are impacted 
by this bill. But in short, I support the Estuary Program. I do 
not support the tremendous expansion that this would have on 
the Columbia River that is not defined as the estuary.
    Thank you allowing me to have the opportunity to be here.
    Mrs. Napolitano. Thank you, Congressman Hastings.
    We have a vote. We have 10 minutes, so we would like to 
move on to Ms. Speier and then we will recess until we take the 
next vote.
    Mr. Blumenauer. Just for 15 seconds. Now I see why my 
colleague wanted me to go first. I will provide information on 
this, but I want to give the Congressman a copy of the 
information where he was in fact invited.
    Mrs. Napolitano. Fine. Let's go with Ms. Speier. Thank you.
    Ms. Speier?
    Mr. Hastings. Could I ask unanimous consent my full 
statement appear in the record? I don't think I asked.
    Mrs. Napolitano. Certainly.
    Without objection, so ordered.
    Ms. Speier. Acting Chairwoman Napolitano and Ranking 
Member, Mr. Boozman, thank you for the opportunity to testify 
this afternoon. Thank you also for your opening comments that 
recognize the importance of our 28 national estuaries and the 
importance they have to enhancing and protecting them in the 
future.
    San Francisco Bay is an economic engine for the entire 
world. It is a center of world trade and a gateway for goods 
from around the Pacific Rim. The Bay Area is also a beacon for 
the kind of ingenuity and groundbreaking discoveries that 
revolutionized the way we live, from advancements in medicine 
and biotechnology, to clean energy and environmental 
sustainability.
    According to recent estimates, the Bay Area generates more 
than $370 billion in goods and services annually, and is home 
to 3.5 million jobs, which contribute greatly to our national 
skilled workforce.
    Underlying the tremendous economic importance of the Bay 
Area, however, is a population of over 7.5 million people, most 
of whom live within five miles of the bay itself. Our progress 
has come at significant cost to the ecosystem upon which we 
depend.
    Today, much of San Francisco Bay estuary is under threat 
from pollution, invasive species, and habitat losses. Over 90 
percent of the bay's wetlands are now gone, and the size of the 
bay has been reduced by over one-third. Infill and development 
have polluted the water and diminished the fish and wildlife in 
the bay, which is now home to over 100 threatened and 
endangered species.
    Over 40 percent of California drains through the bay into 
the Pacific Ocean, taking a large amount of toxic runoff with 
it, contaminating water and air quality, and consequently 
threatening public health, tourism and recreation.
    We also face the urgent need to adapt to climate change, 
and this is particularly critical. San Francisco Bay Area is 
ground zero for the sea level rise that we will see along the 
coastline. Mid-range projections for sea level rise will put 
San Francisco International Airport, shoreline communities, and 
other development under water. The projected cost of such a sea 
level rise to infrastructure and property is estimated at more 
than $60 billion.
    We in the Bay Area live on the edge. The decisions we make 
today will help the bay flourish, or leave it to the mercy of 
both manmade development and a rapidly changing planet.
    For all these reasons, I have introduced H.R. 5061, the San 
Francisco Bay Improvement Act, legislation that authorizes $100 
million annually for 10 years to the EPA to fund San Francisco 
Bay restoration.
    I believe this legislation provides a responsible roadmap 
forward to preserve and protect the vital natural resource. The 
important needs of the bay have been well documented, but 
woefully underfunded for many years. Increased Federal funding 
is crucial to the Federal, State and local partnership charged 
with restoring San Francisco Bay, and will build on our strong 
track record of efficiently leveraging non-Federal resources.
    My bill also gives the EPA direct oversight of the Federal 
investment and ensures that any new funding is accountable to 
the master plan Congress set out for the Bay Area over 20 years 
ago. That plan has actually been revisited as of 2007. So the 
roadmap is there. The needs of the Bay have been well defined, 
and this bill moves us in the direction to restore the Bay.
    I thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Congresswoman Speier.
    We have about a little over six minutes to get to the Floor 
to vote. I will recess. We have four votes, so we should be 
back here in about a half hour to 45 minutes. It depends on how 
long the votes are.
    So with that, this meeting is recessed.
    Thank you.
    [Recess.]
    Mrs. Napolitano. This reconvenes the Subcommittee hearing 
of Water Resources and Environment on Protecting and Restoring 
America's Great Waters, Part II: The Columbia River and the San 
Francisco Bay.
    We will begin with our second panel, our witness from the 
EPA, Environmental Protection Agency, Ms. Nancy Stoner, Deputy 
Assistant Administrator in the Office of Water and 
Environmental Protection Agency.
    Ms. Stoner, welcome. And I have to tell you that in my area 
in Southern California, we have great working relationships 
with EPA. They have done a lot of helpful things for us. And we 
hope that we will continue to have that for the other projects 
that we have. So for all of us here in Congress, thank you very 
much and you may proceed.

  TESTIMONY OF NANCY STONER, DEPUTY ASSISTANT ADMINISTRATOR, 
     OFFICE OF WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Stoner. Thank you. That is wonderful to hear.
    Good afternoon. I am Nancy Stoner, Deputy Assistant 
Administrator for the Office of Water at the United States 
Environmental Protection Agency, and I appreciate the 
opportunity to testify on two large aquatic ecosystems, the 
Columbia River Basin and San Francisco Bay, and the EPA 
programs that work to protect and restore them.
    First, I want to reiterate EPA's commitment to carrying out 
the Clean Water Act. The protection and restoration of 
America's waters is essential for our quality of life, economic 
potential and human health. Our water bodies are imperiled as 
never before from a growing number of threats that include 
excessive nutrient loadings, polluted stormwater runoff, and 
destructive invasive species.
    The Columbia River Basin Program is an EPA large aquatic 
ecosystem that covers a major portion of North America, 
including parts of seven U.S. States and British Columbia. The 
basin provides drainage through an area of more than 260,000 
square miles into a river nearly 1,200 miles in length. The 
Columbia River Basin provides an important North American 
backdrop for urban settlement and development, agriculture, 
transportation, recreation, fisheries and hydropower.
    The Columbia River Basin's unique ecosystem is home to many 
important plants and animals. Columbia River salmon and 
steelhead runs were once the largest runs in the world, but are 
now threatened and endangered in large part due to habitat and 
water issues, including toxics.
    The tribal people of the Columbia River have depended on 
these salmon for thousands of years for human, spiritual and 
cultural sustenance. Salmon restoration, together with toxics 
reduction in the Columbia River Basin is a key environmental 
justice issue for EPA.
    The Columbia River Basin Program is an EPA large aquatic 
estuary that has successfully reduced toxics in fish, water and 
sediment of the Columbia River Basin and implemented a 
collaborative monitoring and research strategy to understand 
toxic loads, emerging contaminants and overall ecosystem 
health.
    The Columbia River Basin Program has identified the 
following priorities that need urgent attention: strengthened 
water quality standards to protect tribal members and others 
who eat a large amount of fish from the Columbia River; long-
term monitoring for the Columbia River Basin with an emphasis 
on emerging contaminants of concern; integration of Columbia 
River Basin salmon recovery efforts with toxics reduction; 
enhanced agricultural partnerships to reduce sediment and 
pesticide loadings; as well as more assistance to farmers in 
more sustainable practices; and increased application of EPA's 
Green Chemistry and Design for the Environment Program concepts 
within the basin to address pollution prevention.
    The San Francisco Bay delta estuary is the largest estuary 
on the West Coast of North America. Its 4 million acre 
watershed covers more than 40 percent of California and 
includes drainage basins for the Sacramento and San Joaquin 
Rivers, the Sacramento-San Joaquin Delta, and San Francisco 
Bay.
    San Francisco Bay is the defining natural feature that 
makes the Bay Area a unique and beautiful place to live. Of 
national renown, the bay is valuable not only for its aesthetic 
qualities, but also for the critical habitat it provides for 
native and migrating fish and waterfowl, and its moderating 
effect on the local climate, the recreational opportunities it 
affords, and the tourist trade and fishery economies it 
supports.
    The San Francisco Bay is also confronted by a wide range of 
challenges that include rapid and unplanned urban development 
resulting in greater pollutant loading; legacy pollution; new 
emerging contaminants like pharmaceuticals; destruction of the 
bay's historic wetland habitat; and an aging infrastructure 
that releases sewage and other pollutants.
    To address these challenges, the San Francisco Bay Program 
is strengthening implementation of the San Francisco Estuary 
Partnership's comprehensive conservation and management plan by 
supporting its new strategic plan; reducing urban runoff 
impacts on water quality through more effective stormwater 
permitting and enforcement; creating incentives to utilize low 
impact development techniques; implementing a comprehensive 
grant program to improve water quality and restore the San 
Francisco Bay watershed; and increasing the effectiveness of 
regulatory programs to protect wetlands and streams, while 
continuing to support restoration of wetlands acreage.
    The two bills that we are discussing today are consistent 
with EPA's commitment to protect and restore these national 
treasures. EPA is fortunate to have excellent longstanding 
collaborative relationships with both the Lower Columbia River 
Estuary Partnership and the San Francisco Estuary Partnership 
through EPA's National Estuary Program.
    Efforts to expand needed support for these significant 
large aquatic ecosystems should be carefully reviewed to ensure 
that they effectively build on existing efforts.
    So I ask that my full written statement be made part of the 
record of this hearing, and I would be happy to answer any 
questions you may have at this time.
    Mrs. Napolitano. Without objection, so ordered.
    Thank you for your testimony, Ms. Stoner. And I will start 
off.
    And I guess maybe because I have dealt with some of the 
issues of water in California, and especially with contaminated 
waters from pollutants such as DDT going into the ocean from 
outfalls, to some of the contaminants in the drinking water 
from the Farrow River and especially water coming down from the 
delta. So we have a great inherent interest in what you are 
doing in EPA. Both Representative Blumenauer and Representative 
Speier introduced legislation to create more robust programs 
for the Columbia River and for the San Francisco Bay. But why 
aren't the existing programs under EPA and the authorities 
enough? And what else can we, the Federal Government, do to 
help in these large scale restoration efforts? But how do more 
of these programs help foster EPA's overall goal for the 
protection and restoration of the rivers?
    We are not doing enough to educate the public. We are not 
doing enough to outreach to the chemical community to come up 
with new or better ways of producing, using, and disposing of 
pesticides and all the other things that end up in the river, 
even pharmaceuticals, because all of that ultimately translates 
into our drinking water.
    How can we work better?
    Ms. Stoner. Thank you. Well, EPA is very proud of its 
National Estuary Partnership Program. And we do think that we 
are accomplishing a lot with that program and the collaborative 
effort that it represents, and the partners that we have made.
    I think, though, that there are additional needs in both of 
these watersheds.
    Mrs. Napolitano. Such as?
    Ms. Stoner. Additional work in terms of, as I mentioned, 
salmon restoration and toxics reduction; as you mentioned, 
education of the public; working with pollution sources on 
various different kinds of program. Erosion control, for 
example, has been one program that has been successful.
    There is plenty of additional work that could be done, and 
the two pieces of legislation we are discussing today would 
build on those existing successful efforts, and expand their 
scope, and provide additional funding.
    So those are all additional needs that could be met.
    Mrs. Napolitano. Okay, so in essence you are saying to a 
certain degree that there is not enough funding available to be 
able to do more in-depth research, development, addressing 
education.
    Ms. Stoner. There are lots of additional needs. There is 
additional monitoring which is needed that is discussed in the 
legislation. That is always a need; identifying sources; 
identifying solutions; working with partners to put those in 
place.
    As you well recognize, there is plenty of work to be done. 
But again, we are proud of what we have done so far and we were 
delighted to see that the National Estuary Program is the 
foundation of these bills.
    Mrs. Napolitano. And you do have collaborative programs 
with other Federal agencies?
    Ms. Stoner. Absolutely. We work with our Federal partners 
throughout these watersheds. That would strengthen those 
partnerships and that collaboration and coordination. That is 
one of the elements in the bills.
    Mrs. Napolitano. Thank you.
    I yield to Ranking Member Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Dr. Stoner, according to the EPA, the San Francisco Bay and 
the Columbia River are readiness fair. In fiscal year 2010, EPA 
requested $5 million in funding for San Francisco Bay and 
received $7 million through the annual appropriations process, 
in addition to what it receives from the National Estuary 
Program. While this is an important estuary, of the 28 
estuaries in the Program, how many are readiness poor and how 
much funding is provided for those estuaries? And in what case 
would a fair estuary get priority funding over a poor estuary?
    Ms. Stoner. I am afraid I don't know the answer to the 
question about how many were rated as poor, so I have to get 
back to you on that information.
    Mr. Boozman. Okay. In what case would a fair estuary get 
priority funding over a poor estuary?
    Ms. Stoner. I think it might depend upon the needs of the 
estuary, the size of the estuary, potentially the development 
of the plan; how well developed the plan is; how well the 
partnership is working; and whether there are additional needs 
that could be appropriately funded and achieve the most 
benefits.
    There are always very tough decisions in budget 
negotiations, as I am sure you know, and many important needs 
and priorities. I don't think there is just one particular 
scale that is used. To my knowledge, I am sure there are lots 
of factors that are considered.
    Mr. Boozman. According to the National Estuary Program's 
brochure, NEPs have obtained over $10 for every $1 provided by 
EPA, generating nearly $4 billion for the on the ground effort 
since 2003. Does EPA track what has been accomplished with the 
$4 billion? If so, what benefits have been derived from the $4 
billion? And what has the $4 billion been spent on?
    Ms. Stoner. This is $4 billion from what, Congressman? I am 
sorry.
    Mr. Boozman. The NEPs.
    Ms. Stoner. The $4 billion that is the Federal 
contribution?
    Mr. Boozman. No. In other words, they generate $10 for 
every $1 provided by EPA.
    Ms. Stoner. Okay. Thank you. We are proud of the fact that 
one of the benefits of the NEP is that it does leverage private 
contributions as well, through the partnership efforts and the 
voluntary collaborative efforts that we work on together. We do 
track the progress of the NEP with regular reports on the 
accomplishments and the progress that is being made.
    Mr. Boozman. Okay. In the last 10 years, how much EPA 
funding has been dedicated to the San Francisco Bay? How much 
EPA funding has been dedicated to the Columbia River? And can 
you quantify for us the benefits that have resulted in the 
investment?
    Ms. Stoner. The information that I have is, you are looking 
for the past how many years, Congressman?
    Mr. Boozman. Five or 10, really whatever you have.
    Ms. Stoner. Okay. All right. Well, the total for the NEP 
from 2000 to 2010 is $243,776,000. And for San Francisco, the 
funding information appears to be $16 million. If I have the 
Columbia River number, I don't see that in front of me right 
now, so, I would have to get back to you on that.
    We do have a number of accomplishments in the toxics action 
plan and the development of the comprehensive conservation and 
management plans for both watersheds. In the recent update of 
that plan for San Francisco, we have monitoring that has been 
done. We have toxics reduction. We have in fact a delisting in 
the Yakima River due to toxics reduction. We have wetlands 
restoration numbers that we could give to you in terms of 
acreage of wetlands that have been restored.
    We feel like these are programs that are very successful in 
addressing the habitat issues, the toxics issues, the 
stormwater and infrastructure issues. And I would be happy to 
provide more information for the record on that.
    Mr. Boozman. Thank you very much.
    Mrs. Napolitano. Ms. Stoner, it is our understanding, and 
you just mentioned you couldn't find anything for the Columbia 
River large aquatic ecosystem, but it is my information that 
along with the Pacific Islands, it is the only member of the 
Council of Large Aquatic Ecosystems that has not received any 
dedicated funding. Could you verify that?
    Ms. Stoner. That is what I will get back to the Committee 
on, yes.
    Mrs. Napolitano. Okay. Because that is a question that, of 
course, that deals directly with Mr. Boozman's question.
    What are the implications of this to the health of the 
Columbia River Basin then?
    Ms. Stoner. Again, there are definitely additional needs in 
the Columbia River Basin, and I am sure additional funding 
could be utilized to address those needs.
    Mrs. Napolitano. Right, but specifically to the health of 
the river itself in so far as the fish, the health of the 
ecosystem, the environment, any of the cities that are 
alongside that draw water from the river, all those things. 
What would be the implications?
    Ms. Stoner. The Columbia River system has a number of 
impairments associated with it. As we have been discussing, one 
of them is toxics and fish consumption issues associated with 
it. So that is a human health issue. It is an environmental 
justice issue. It is a very significant issue.
    And so those needs are great for the river.
    Mrs. Napolitano. In your testimony, ma'am, you note that 
salmon restoration is the key environmental justice issue for 
EPA. Would you please explain how you will therefore act on 
this matter, given it has been identified as a key 
environmental justice issue? And I can tell you in Jackie 
Speier's area, the salmon fisheries just started after, this is 
the third year that they have not been able to do salmon 
fishing because of the decline of the population. So has any of 
this happened along the Columbia? Along with the other 
question.
    Ms. Stoner. Right. Well, the toxic reduction action plan is 
designed to address this problem. As I mentioned earlier, one 
of the approaches that we have used and has been working to 
address toxics as it comes from eroded land is through efforts 
at erosion control. That is one of the methods that we are 
currently doing studies on where the sources of toxics come 
from, and identifying those sources is the best way in 
identifying the collaborative partnerships that we can use to 
then address toxics.
    Mrs. Napolitano. And the potential sources are?
    Ms. Stoner. Well, a lot of these are legacy pollutants, so 
a lot of them have been in the water for some time in the 
sediments and so forth. Sometimes they are in the soil. 
Sometimes you also have toxics that come from runoff from the 
streets; could be stormwater pollution; can be air deposition; 
can be farm runoff. There are lots of different potential 
sources.
    And so figuring out where these are most available and can 
be addressed most effectively is our approach.
    Mrs. Napolitano. I notice that selenium was not mentioned. 
Is that also a problem?
    Ms. Stoner. Selenium is often found in soil and definitely 
can be a significant issue.
    Mrs. Napolitano. Okay. Thank you, ma'am.
    Mr. Boozman?
    Mr. Boozman. Yes, ma'am, a couple of things. I guess really 
what I would like to know, and I think the Committee would--we 
have really spent a lot of money--and the idea that things are 
getting better really doesn't get it. I guess what I would like 
to know is, and you might not have the specific information now 
or your staff that is with you might not have it, but I think 
the Committee really would like to know some specifics as to 
exactly what is going on, if we are moving in the right 
direction and how you measure that. I think it is important to 
measure that.
    The other thing is that EPA requested specific line item 
funding in 2010 and 2011 for San Francisco. Again, the Columbia 
and San Francisco are both readiness fair. So I guess what I 
would like to know, and it sounds like you don't really have 
the information now as to how you make that determination.
    Ms. Stoner. No, sir, I was not involved in the budget 
decisions with respect to this. And so I don't know the 
criteria that were considered. I can inquire.
    Mr. Boozman. Okay. Well, again, like I said, so you don't 
have anything to do with the--they don't ask you?
    Ms. Stoner. I wasn't involved in the budget decisions last 
year. I actually joined the agency a couple of months ago.
    Mr. Boozman. Okay. Well, again, and like I said, I 
understand then that you don't have it, but hopefully somebody 
has some information laying around somewhere as to how they 
made that determination. And so if you would send that over for 
the record, we would appreciate that.
    Ms. Stoner. Again, yes, I am confident that it was well 
thought through and that a number of factors were considered. I 
do know that those decisions are very difficult and require a 
lot of discussion. And so I am confident that there were people 
who were involved in those discussions. It just wasn't me.
    Mr. Boozman. Thank you very much.
    Mrs. Napolitano. Thank you, Ms. Stoner. And I may say that 
the San Francisco Bay Area is not in my area, but we treasure 
it deeply, especially because we get a lot of the water from 
the northern part of California and it is an area that if it 
affects them, it will affect Southern California. So we look at 
it very, very closely.
    Ms. Stoner. Well, these are both beautiful areas of the 
Country and fabulous resources. So it is very important to us, 
as I am sure it is to you, to ensure that they are protected 
and restored.
    Mrs. Napolitano. Very much so. Thank you for your 
testimony. You are dismissed. And we would like to call our 
third and last panel of the afternoon, consisting of additional 
stakeholders in the Columbia River Basin and the San Francisco 
estuary.
    First, Mr. John Gioia will testify. He is on the Contra 
Costa County Board of Supervisors. Our second witness is Mr. 
Jim Wunderman, the President and Chief Executive Officer of the 
Bay Area Council. And following will be Ms. Judy Kelly, 
Executive Director of the San Francisco Estuary Partnership. 
Our fourth witness is Mr. Paul Lumley, Executive Director of 
the Columbia River Inter-Tribal Fish Commission, followed by 
Debrah Marriott, Executive Director of the Lower Columbia River 
Estuary Partnership; and last but certainly not least, Senator 
Jackie Dingfelder from the Oregon State Senate joining us 
today.
    Welcome to our panel, and your full statements will be 
placed on the record. So we ask that you try to limit your 
testimony to your salient points, to five minutes as a courtesy 
to the rest of the witnesses. And we will begin with our first 
witness. Mr. Gioia, you are it.

 TESTIMONY OF JOHN GIOIA, CHAIR, CONTRA COSTA COUNTY BOARD OF 
   SUPERVISORS; JIM WUNDERMAN, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, BAY AREA COUNCIL; JUDY KELLY, EXECUTIVE DIRECTOR, SAN 
FRANCISCO ESTUARY PARTNERSHIP; PAUL LUMLEY, EXECUTIVE DIRECTOR, 
 COLUMBIA RIVER INTER-TRIBAL FISH COMMISSION; DEBRAH MARRIOTT, 
 EXECUTIVE DIRECTOR, LOWER COLUMBIA RIVER ESTUARY PARTNERSHIP; 
         SENATOR JACKIE DINGFELDER, OREGON STATE SENATE

    Mr. Gioia. Thank you.
    Madam Chair, Members of the Subcommittee, my name is John 
Gioia. I am here today to testify from the perspective of local 
governments in the San Francisco Bay Area about the great need 
for increased Federal investment for San Francisco Bay.
    I am the Chair of the Contra Costa Board of Supervisors and 
serve on a number of Bay Area regional commissions.
    The restoration of San Francisco Bay is of national 
importance and warrants substantial Federal investment. The 
bay's health impacts both local and national economies. The bay 
is home to about 3.5 million jobs.
    While San Francisco Bay benefits the national economy, 
local governments are increasingly bearing the primary cost of 
stewardship of the bay. One of the biggest challenges to 
maintaining the bay's health is the fact that it is the most 
urbanized estuary in the Nation. Nearly 7.5 million people live 
in the Bay Area and half of this population lives within five 
miles of the bay.
    The good news is that over the past few decades, local 
governments in the Bay Area, working with citizen and 
environmental groups, have taken proactive steps to reverse the 
steady decline in the ecological health of the bay. They set in 
motion a comprehensive planning effort to improve the health 
and vitality of the bay.
    Local agencies around the bay maintain the highest 
standards of pollution control in the Nation. But today, we 
find that we are unable to meet our own high standards due to 
the deterioration of an aged infrastructure system in the face 
of a growing population and declining revenues. The cost to 
improve this system are well beyond the ability of local 
agencies.
    We face substantial costs to upgrade our wastewater 
collection and treatment systems to ensure prevention of sewage 
outflows that damage the bay. We need to upgrade regional 
treatment plants and build new distribution networks to replace 
the wasteful use of potable water with recycled water.
    An even bigger problem is stormwater runoff, which is the 
largest contributor to bay pollution and the most difficult to 
manage. In addition to runoff from communities within the Bay 
Area, urban and agricultural runoff from our vast central 
valley also ultimately reaches the bay.
    Bay Area communities are aggressively tackling the problem 
of stormwater runoff, but face a major financing obstacle. 
Local governments need a two-thirds vote of the people to raise 
funds for stormwater management programs. As a result, 
management of stormwater quality is significantly underfunded. 
Consequently, our region is spending the least amount of money 
on one of the biggest pollution problems. A Federal investment 
will leverage increased local dollars.
    Bay Area agencies are working cooperatively to solve our 
region's problems. We are tackling transportation, air and 
water quality, and land use issues on a regional level. All of 
these issues impact the health of San Francisco Bay. Federal 
assistance to support these efforts will leverage greater local 
dollars to sustain these initiatives.
    Bay Area leaders recognize that land use planning has 
enormous impacts on water and air quality. As a result, the 
Association of Bay Area Governments has led a regional effort 
to focus on infill development in areas where there is access 
to transit, jobs and utility capacity.
    The Bay Conservation and Development Commission has 
established a climate change planning program to identify and 
report on the impacts of climate change on the bay and identify 
strategies for adapting to climate change. Communities around 
the bay have been working collaboratively on a variety of 
scientific endeavors to improve the health of the bay.
    Finally, and probably most exciting, is the establishment 
of the San Francisco Bay Restoration Authority, which is a new 
regional government agency charged with restoring San Francisco 
Bay through the raising and granting of funds to restore the 
bay's critical tidal wetlands. Today, over 36,000 acres of 
restorable bay shoreline is in public ownership and proposed 
for restoration to tidal wetlands. Restoring these 36,000 acres 
will cost up to $1.4 billion.
    While there is identified Federal and State funding 
available to complete some of this work, the Authority's 
mission is to formulate a strategy for raising local revenues 
to fill this funding gap. Additional Federal investment in this 
effort would greatly increase support for local funding.
    In conclusion, the San Francisco Bay Area is on the verge 
of implementing a successful plan to restore our treasured 
estuary. We have a blueprint for restoring the bay, strong 
regional leadership on this issue, a history of successful 
collaboration among local and State agencies and active citizen 
groups, and we have the commitment and expertise to carry this 
out.
    All we need is a strengthened partnership with the Federal 
Government, along with an increased investment, and we will be 
able to make great strides in improving the health of this 
critically important estuary for the region, the Nation and the 
world to enjoy for generations to come.
    Thank you for the chance to testify before you today.
    Mrs. Napolitano. Thank you, Supervisor.
    Now, we turn to Mr. Jim Wunderman.
    Mr. Wunderman. Good afternoon and thank you, Madam Chair. 
It is a pleasure and honor to be here today.
    My name is Jim Wunderman. I am the President and CEO of the 
Bay Area Council, which represents 275 of the largest employers 
in the nine county San Francisco, Oakland and Silicon Valley 
Bay Area. Almost all business sectors are represented in our 
Council, and as is the case throughout America, there is 
tremendous pressure on our region's as well as our State's 
economy. Our unemployment rate exceeds 12 percent and our State 
government is facing a daunting fiscal crisis, which you are 
aware of.
    I want to thank Congresswoman Jackie Speier for her 
leadership in introducing this important legislation. You have 
already heard about the environmental conditions in the bay and 
the estuary that necessitate Federal action. What I would like 
to do is focus on the economic side of the equation because in 
our region the environment and the economy are inextricably 
interlinked.
    San Francisco Bay is very much the centerpiece of our 
region's environment, but it is also at the center of our 
region's economic vitality. We should not kid ourselves. The 
defining feature of our region is now under serious threat. The 
bay itself is under assault by sea level rise, serious runoff 
pollution, changes to water salinity, invasive species and 
trash.
    We need Federal help to address these issues, and we submit 
that it is in the national interest to do so because the San 
Francisco Bay Area, note that we have named our region after 
the bay itself, is one of the most important and successful 
economic hubs in this increasingly knowledge-driven world.
    Here are just a few facts about the Bay Area's economy and 
why its continued vibrancy is so important to our Nation. If it 
were a country, our region would place as the 25th largest 
economy worldwide. We have a huge pool of public and private 
research institutions that are among the best in the world. 
There are more Fortune 500 companies, 27 of them, than any 
other region in America other than New York.
    We are also an important global center, with the fourth 
highest amount of Forbes Global 1,000 companies, behind only 
Tokyo, London and New York. Thirty-six percent of all the 
venture capital invested in America is invested in the Bay 
Area, which underscores why and how innovations, ideas and 
startups are so prevalent there.
    We are the birthplace of the biotech industry and more life 
science companies are headquartered in the region than any 
other place on Earth.
    We strongly believe that the ability to maintain these 
knowledge industries ties directly to the quality of life 
afforded by the bay.
    In addition to the knowledge-based industry that the Bay 
Area is so well known for, the region's economy is actually 
quite diverse, and a good portion of it is directly dependent 
upon a healthy San Francisco Bay. The Port of Oakland by itself 
is the fifth largest container shipping port in the United 
States and a major point of exports for agricultural products 
grown in the central valley and other parts of the Country. 
Through that port, plus eight smaller ports and three 
international airports, the Bay Area handles nearly 30 percent 
of West Coast trade.
    Tourism generates over $7 billion each year and is one of 
the largest industries in the region. Whether it is Fisherman's 
Wharf or the Golden Gate Bridge or Fleet Week or one of the 
many sailing regattas that take place throughout the year, the 
Bay Area is the destination or the backdrop for the activity.
    Commercial fishing, which is completely dependent on a 
health bay and estuary, remains an important and relied-upon 
regional industry. And Madam Chair mentioned the problems that 
we have been facing with our salmon these last few years.
    Our bay and therefore our region is under threat, as you 
have heard today. And the point I would like to leave you with 
is that it is not only in our Country's environmental interest, 
but also our economic interest to take action and begin turning 
back the chain of events which have led to the current 
situation.
    We recognize that the Federal Government cannot and should 
not be responsible for all the costs associated with what must 
be done. As has been the case with other environmental 
remediation and restoration projects in other key parts of the 
Country, like Chesapeake Bay, the Florida Everglades, the Great 
Lakes, Congresswoman Speier's legislation requires that there 
be local and State matching efforts to draw down Federal funds 
appropriated for the purpose.
    We further believe that there will be many instances where 
private investments, coordinated with public jurisdictions, can 
contribute mightily to restoration efforts. Such private 
investments can deliver valuable new housing and other public 
benefits, while producing other significant environmental 
results like reducing greenhouse gas emissions and vehicle 
miles traveled. These are all detailed in my written statement 
which I have provided for the record.
    Today, I would like to specifically urge you to help 
complete a vulnerability assessment of climate change on the 
estuary, update floodplain maps, strengthen response to oil 
spills in the estuary, make good use of public-private 
partnership opportunities, and to make a 10-year commitment to 
fund priority objectives for the bay estuary.
    Thank you again. I appreciate the opportunity to be here.
    Mrs. Napolitano. Thank you, sir, for your testimony.
    We now turn to Ms. Judy Kelly.
    Ms. Kelly. Madam Chairwoman, Members of the Subcommittee, 
good afternoon.
    It is really my honor to talk to you today about the 
largest estuary on the West Coast, known throughout the world 
for its breathtaking beauty, the iconic bridges that span its 
water, and the great cities that surround its shore.
    The estuary, despite 150 years of alteration, is still a 
key engine that provides enormous economic and environmental 
benefits to the people of the region, the State and the Nation.
    Cargo ships from all across the Pacific Rim depend on the 
ports and infrastructure of the estuary. The San Francisco Bay 
Area, as has been mentioned, is the United States' fourth 
largest exporting region, accounting for 36 percent of 
California's exports alone.
    In 2008, just the City of San Francisco hosted 15 million 
visitors, generating some $7 billion into the Bay Area economy 
and many more billions of dollars to our Nation's wealth. The 
Bay Area estuary helped power this economic engine and the 
health of the estuary is vital to keeping it running.
    While over 7.5 million people call the Bay Area home, the 
San Francisco estuary does not belong to the citizens of 
California alone. In 1987, Congress recognized our estuary as 
one of being nationally significant. And hundreds of citizens, 
agency staff, business representatives, and non-profits came 
together to do the hard work of crafting a master plan for 
restoring the health of the estuary.
    The partnership between the Federal Government, the State 
and the region on estuary issues has been a very strong one. 
Over the past 10 years, in spite of budget problems, California 
voters approved a series of bond issues that support both water 
supply and ecosystem restoration efforts.
    In fact, just last year, as Mr. Gioia mentioned, the 
legislature created the San Francisco Bay Restoration Authority 
and tasked the region with exploring local funding options for 
restoring some of those 36,000 acres of wetlands we currently 
have in public ownership.
    Also, as a major landowner and stakeholder in the region, 
the Federal Government also has a vested interest in the 
estuary. The Federal Government owns and maintains seven 
national wildlife refuges around the bay. Over 25,000 acres of 
Federal military bases on the shores of the bay and the estuary 
have been decommissioned over the past 30 years. In many cases, 
those bases left pollutants that have compromised water quality 
and contaminated wildlife habitat.
    The Estuary Partnership's comprehensive plan completed in 
1993 and revised again in 2007, addresses all aspects of 
estuary restoration, from reducing pollution to conserving 
wildlife habitat to preserving the productivity of the 
estuary's commercial enterprises. The plan needs the active 
support of the Federal Government and Congress, working in 
cooperation with the State, localities, business and citizen 
groups to make it happen.
    Clean water and healthy habitats remain stubborn problems 
due to several issues, including the dispersal of toxic 
substances within our watersheds and funding limitations to 
address all the issues. Currently, the region has over 88 water 
bodies identified by USEPA as being impaired.
    Expanded Federal funding alone, with continued State and 
Federal support, matched by new local funds which would come 
through the Bay Restoration Authority, will help enable us to 
work on critical restoration efforts throughout the estuary 
system and result in multiple ecological and economic benefits.
    New challenges and opportunities create an urgency to act. 
Restoring our bay wetlands is one of those key opportunities. 
As I mentioned, nearly 36,000 acres of bay lands are currently 
in public ownership waiting for funding to proceed through the 
restoration phase. These lands play a critical role in 
protecting our bayside communities.
    The bay has already risen eight inches over the past 90 
years, and we expect to see a rise of an additional 16 inches 
by mid-century. The value of Bay Area shoreline development, 
buildings, roads, airports, parks, at risk is estimated at $62 
billion.
    Tidal wetlands are the region's first line of defense 
against a rising sea. These marshes form natural levees and act 
as buffers that protect developed areas from flooding at far 
less cost than building engineered barriers.
    Our sense of urgency has led the Estuary Partnership to 
conduct a strategic planning process completed late last year, 
which identifies key actions on which to focus. Increased 
Federal assistance will not only provide benefits to fish and 
wildlife, but will also provide critically important services 
to the human community. It will help preserve a national icon 
and a vital economic and environmental resource beloved by the 
Nation and the world.
    I want to thank you again, Madam Chairwoman. Thanks also to 
Chairmen Oberstar and Johnson and Ranking Members Mica and Mr. 
Boozman for their dedication in restoring this Country's great 
water bodies. I would be glad to answer any questions or assist 
you and the Committee in any way.
    Mrs. Napolitano. Thank you for your testimony, Ms. Kelly.
    And we now will hear from Mr. Paul Lumley.
    Mr. Lumley. Good afternoon, Madam Chairwoman and thank you 
to Members of the Committee for the invitation here to testify.
    I am Paul Lumley. I am the Executive Director of the 
Columbia River Inter-Tribal Fish Commission and a citizen of 
the Yakima Nation.
    The Columbia Inter-Tribal Fish Commission was formed in 
1977 to ensure a unified voice in the overall management of the 
fishery resource. Our member tribes are the Confederated Tribes 
and Bands of the Yakama Nation, the Confederated Tribes and 
Bands of the Umatilla Indian Reservation, Confederated Tribes 
and Bands of the Warm Springs Reservation of Oregon, and the 
Nez Perce Tribe.
    Each of our four tribes have similar treaty language. In 
those four treaties, though, combined we ceded 40 million acres 
of land to the Federal Government in exchange for certain 
rights. In each of those treaties, we reserve the right to fish 
and hunt in all usual and accustomed fishing places.
    Those rights were not granted to the four tribes. Those 
rights were primarily to preserve and protect our first food, 
which are traditional to our cultural way of life: [word in 
native language], which is water; salmon, the [word in native 
language]; and elk, roots and berries in that order. And that 
is the way that the Creator has delivered those resources to us 
and we are entrusted to the protection of those resources for 
seven generations. That is why the Columbia River Inter-Tribal 
Fish Commission exists.
    I can't stress enough the importance, though, that when we 
signed our treaties in 1855, implicit in those treaties was the 
understanding that those fish would be healthy and edible to 
eat. The land that we fish on is not necessarily limited to our 
reservation boundaries. The right to fish and hunt in all usual 
and accustomed fishing places is a place-based right and we 
cannot move our fishery around to find other fish that are 
healthier for us to eat.
    I want to bring your attention to some comments regarding 
the state of salmon restoration in the Columbia River Basin. 
First, I want to point out that the Columbia River, or Nch'i-
Wana, which means Big River, once produced more salmon than any 
other river basin in the world. Now, it produces more 
electricity.
    Obviously, we have had more problems in the Columbia River 
Basin than we ever expected when we signed our treaties in 
1855. We have had a major crisis occur in the mid-1990s when 
several species were listed under the Endangered Species Act. 
There is no doubt that our recovery efforts are complicated. We 
have found ways to achieve some level of success with 
increasing populations. However, no salmon species have been 
de-listed to this point. In fact, just a month or so ago, we 
have had another listing of smelt in the Lower Columbia River.
    Another species of extreme concern to the tribes is Pacific 
Lamprey, which are also declining at an alarming rate. So while 
we have made progress in some areas, we haven't made enough 
progress to get to full recovery.
    After the listings in the 1990s, the Columbia River Inter-
Tribal Fish Commission sponsored a report called Wy-Kan-Ush-Mi 
Wa-Kish-Wit, which stands for Spirit of the Salmon. That is our 
gravel-to-gravel management plan to restore salmon in the 
Columbia River Basin.
    There is no doubt that there is a major Federal investment 
in the Columbia River Basin to restore salmon. However, one 
very major missing link to the puzzle is a coordinated basin-
wide approach to addressing toxics in the Columbia River.
    In 1991, we signed a cooperative agreement with the 
Environmental Protection Agency for a two-phased approach to 
address toxics in the Columbia River. The first phase was to 
complete this study, which is to evaluate the consumption rate 
of salmon that we are eating, and we found out that our members 
were eating approximately nine times more fish than the general 
public.
    The second phase was to look at the contaminants that were 
in the fish tissue. And so this was phase two, which was 
completed in 2002. What we found out was that there are 
significant concerns with the criteria to protect our people. 
The criteria that is currently established protects the general 
public, but not our tribes. These findings are referenced in 
the proposed legislation.
    I would like to turn my attention to the Columbia River 
Restoration Act. First of all, I want to applaud the efforts 
for this legislation. It is sorely needed in the Columbia River 
Basin. Nch'i-Wana is a major river. It is a huge river 
worldwide. It deserves to be protected.
    There has been a significant lack of attention to toxics in 
the Columbia River Basin, and we stand here ready to assist you 
and the Committee any way we can to improve this legislation to 
address comments that we heard earlier today from the 
Congressional panel.
    We do have three recommendations on the bill. The first is 
to provide that the EPA Regional Administrator be in charge, be 
the primary leader in the bill. We have concerns about the 
allocation of funds and programmatic authority. We want to have 
a discussion about increasing financial resources in up-river 
locations. And third, we think that a single Columbia River 
Basin strategic planning document is needed, and we suggest 
that EPA's Columbia River Basin Toxics Reduction Plan should be 
that plan. We fully support LCREP in their initiatives. They 
have a wonderful management plan that should be nested there as 
well.
    I would like to turn my comments, if I could, for a little 
bit longer to address some concerns that were raised by the 
Congressional panel. Is that all right?
    Mrs. Napolitano. I am sorry?
    Mr. Lumley. Some concerns that were raised by the 
Congressional panel? I know I am out of time, but if I could 
just address their concerns real quickly?
    Mrs. Napolitano. Certainly.
    Mr. Lumley. Thank you.
    We share the concerns that contaminants in the estuary have 
long been overlooked. However, we cannot ignore the fact that a 
substantial amount of contaminants in the estuary originate 
from sources throughout the Columbia River Basin. We also do 
not want this bill to compromise collaborative efforts or legal 
positions. The bill as drafted did not intend to do that.
    We are prepared to work with you to improve the language. 
The intent of the bill is to add value to collaboration, reduce 
contamination, and contribute to salmon restoration.
    I thank you for the opportunity to testify today. Thank 
you.
    Mrs. Napolitano. Thank you for being brief, and thank you 
for that testimony.
    Ms. Marriott?
    Ms. Marriott. Thank you, Madam Chair, Members of the 
Committee. My name is Debrah Marriott. I am Executive Director 
of the Estuary Partnership. I would like to thank you and 
Congressman Blumenauer for your leadership in protecting our 
estuaries and great waters.
    This bill does address the Columbia Basin as a large 
aquatic ecosystem, a status it shares with the Chesapeake Bay, 
Great Lakes, Everglades and the Gulf of Mexico. It unites the 
Columbia Basin as a whole, including the NEP, the National 
Estuary Program in the lower 146 miles. The Columbia NEP and 
the large aquatic ecosystem are not the same geography. The NEP 
is nested within the larger basin.
    The Columbia, as you have heard, is the fourth largest 
river in North America; 8 million people, 2,000 species live 
here and depend on it. It provides 75 percent of the power for 
the Northwest. Sales from farm and ranch exceed $10 billion a 
year and it carries $13 billion worth of cargo a year.
    You have heard today about its degradation. Ninety-two 
priority pollutants have been identified. The entire main stem 
is impaired. Thirteen species of salmonid are listed as 
threatened or endangered. Legacy toxics are still present in 
fish, sediment and water quality. New contaminants in flame 
retardants and pharmaceuticals are causing male fish to morph 
to females within their life cycle, and other contaminants have 
impaired the reproduction of male river otters.
    Contaminants that start far up in the basin end up 
deposited in lower river ports, putting our port operations at 
risk. The loss of fish has decimated our commercial fishing 
industry, dropping from $41 million in personal income in 1980 
to $4 million by 1998. The fish consumption rates of tribal 
people are high.
    We have conducted many one-time studies that give a very 
clear snapshot of the problems. The planning has been done. We 
have six Federal plans, and our management plan, and the State 
recovery plans that all call for restoring habitat and reducing 
toxics.
    The infrastructure is in place. The Estuary Partnership has 
15 years working in the lower river. We have done a lot with 
restoration; EPA has four years of working with the Toxic 
Reduction Working Group in the upper basin.
    In the lower river, EPA has invested approximately $4 
million in the Estuary Partnership since 2000. We have 
leveraged that to bring another $20 million, and with that we 
have restored 16,000 acres of habitat, mostly targeted for 
salmonid fish. It restores less than half of what we have lost 
in settlement.
    There is no sustained monitoring on the main stem Columbia 
and no concerted toxic reduction effort. As we have learned 
more about the problems, we have actually been investing less. 
We know what we need to do. All of these studies tell us that 
we need to collect and analyze a full suite of contaminants at 
the same locations at regular intervals over time. We need to 
expand toxic reduction collection sites for farmers, mercury 
collection on tribal lands, and pharmaceuticals to keep them 
out of the water and out of the hands of teens.
    The States have increased their investments in the water 
bodies within their States, but the Columbia mainstem lags 
behind and the estuary lags even further behind. Of the $877 
million invested by Bonneville Power in five years from 2004 to 
2009, less than 7 percent was in the lower river. This needs to 
be reversed.
    Every threatened and endangered salmonid in the entire 
basin uses the estuary at least twice in their life cycle. They 
are contaminated and their habitat is contaminated. Fifteen 
years ago, we identified over two dozen toxic hot spots in the 
lower river. We need to clean them up and we need Federal 
assistance to help us do that.
    We would suggest adding language to codify EPA's current 
stakeholder process using an NEP model in the whole basin to 
ensure a community-based process. It has been tested and it is 
trusted in the lower river. It ensures all interests are 
considered. It focuses on results and it is completely 
voluntary.
    This bill recognizes the basin as one geography. The 
Estuary Partnership is part of EPA's basin efforts. Keeping 
those linked for consistency is critical. Implementation can 
happen effectively through existing entities to keep momentum 
and recognize local needs. The bill sets a unified approach and 
it begins to reverse the lack of investment in the estuary, at 
least in the initial years.
    Funds targeted to us go out to local partners. We set the 
regional strategic prioritization with them and provide 
coordination. The 75 percent cost share is essential to local 
partners. This secures the region. It keeps ports operational. 
Every $2.5 million in restoration creates 55 jobs, from 
construction laborers for bridge repairs to foresters. It aids 
farmers and it opens markets for local supplies.
    It is a national priority. The Columbia is an estuary of 
national significance and the entire basin is a great water 
body, a large aquatic ecosystem. Yet unlike the Great Lakes or 
Chesapeake, we receive no funding pursuant to it. These 
problems have been here for a while. They come from many 
different activities. They can't be corrected in one or two 
years, and the current investment does not match the magnitude 
of the problem.
    This holds us accountable to our kids and it lets us take 
action now.
    Thank you very much for the opportunity to speak with you.
    Mrs. Napolitano. Thank you for your testimony, Ms. 
Marriott.
    And now, Senator Dingfelder. Thank you very much.
    Ms. Dingfelder. Thank you. Good afternoon, Madam Chair and 
Members of the Committee. My name is Jackie Dingfelder. I am a 
member of the Oregon State Senate, and I chair the Senate 
Environment and Natural Resources Committee back in my State.
    I represent Senate District 23, which includes portions of 
northeast and southeast Portland and is adjacent to the 
Columbia River.
    Thank you for the opportunity to speak on behalf of the 
Columbia River Restoration Act of 2010.
    The State of Oregon has made significant investments even 
in these difficult economic times to improve watershed health 
within our State. Most notably during the 2007 legislative 
session, the legislature increased funding to our Oregon 
Department of Environmental Quality known as DEQ to institute a 
statewide Toxics Reduction Program.
    As part of this program, DEQ is working in 18 basins 
throughout the State to monitor for toxic pollutants in water 
fish and sediment, and the agency is assessing current use of 
legacy pesticides, industrial chemicals, chemical byproducts, 
pharmaceuticals and personal care products.
    In 2008, Oregon targeted the Willamette River basin for 
toxics monitoring and reductions, and the State is currently 
looking at about 20 sites that are sampled twice a year. It 
costs the State about $1 million a year, so we are making those 
investments.
    Some of the findings so far include high levels of 
herbicides, which was the most frequently detected class of 
pesticides in surface water. Pharmaceuticals were detected at 
low concentrations; heavy metals such as copper, lead, arsenic, 
silver and zinc; levels of polychlorinated biphenyls, and these 
were measured in composites of fish fileted offsite; and also 
combined mixture of dioxins and purons in fish. And last but 
not least, we found pesticides that were detected at above the 
EPA screening levels. And this is of great concern to us.
    Mercury concentrations in fish tissue has significantly 
increased from 2002 to 2008 when it was found at concentrations 
that exceeded screening levels established by the EPA for 
subsistence fishers and often exceeded the threshold value used 
by the Oregon Department of Human Services to issue fish 
consumption advisories.
    Although these are findings from the Willamette River, it 
eventually flows into the Columbia River. Thus, we are 
concerned about contaminants that are also entering the 
Columbia River system.
    The State of Washington shares many of Oregon's concerns 
regarding the Columbia River and in fact Washington is making 
its own investments in improved water quality. Yet, the State 
simply cannot provide all the needed resources that are 
required to protect this most important river system. The 
Columbia River is, after all, as I am sure you are well aware, 
a shared water body, a Federal navigable waterway, a major U.S. 
transportation port, and a national treasure.
    Federal investments in the lower river and estuary are 
considerably less than what has been made in the remainder of 
the basin. Currently, the Bonneville Power Administration is a 
major funder through the Biological Opinion, and their 
investments have been focused for decades above the Bonneville 
Dam. In fact, EPA began investing in lower river only as 
recently as 2003, and has targeted less than 7 percent of its 
entire funding source to that area.
    The unfortunate reality is that the Lower Columbia River 
and estuary are significantly impaired. And this impairment is 
due to contaminants entering the river below Bonneville, 
notably from the Willamette River and from runoff from the 31 
towns in the lower river, but also from contaminants that start 
far up in the basin and ended up deposited in lower river 
sites.
    As you have already heard, every ESA listed threatened and 
endangered salmonid migrates through the estuary at least twice 
in their life cycle, and I am also sure that you are very aware 
of the economic challenges facing States. Oregon has one of the 
highest unemployment rates in the Nation. Washington is not far 
behind.
    This bill will provide a major investment in reducing 
toxics and cleaning up the Lower Columbia River, but this bill 
will also be a central component to our economic recovery. As 
we work to improve the Columbia, we can provide immediate jobs 
through work as monitoring, analysis and other cleanup 
activities. Plus, this bill secures our region's long-term 
economic advantages; cleans up the sediment and water quality 
to bring back fish and keep ports operational; and provides 
cleanup assistance to farmers to keep them producing and 
shipping products to international markets.
    We need to act now to improve the Lower Columbia River and 
estuary. Our region has developed many plans over the past 10 
years and they all say the same thing: restore habitat and 
reduce toxics. I am confident that the Columbia River 
Restoration Act of 2010 will greatly assist us in reaching this 
goal, and I urge support of this bill.
    Thank you for the opportunity to testify here today and I 
would be happy to answer any questions.
    Mrs. Napolitano. Thank you, Senator. I am very interested 
in what your State legislature has done in the past to go after 
the potentially responsible parties for pollution, and also 
whether or not the potentially responsible parties are part of 
the solution, as well as provide training for the agricultural 
folks in terms of use of pesticides and fertilizers, and then 
on to educating the general public as to what they can do to 
not flush stuff down the toilet or to be able to be more 
careful about things that are polluting our waters.
    Are you embarking on that? Are you including the business 
community? Are you doing outreach to the general public to 
begin to tell them how vital your river is to the health and 
welfare and your economic well being?
    Ms. Dingfelder. Thank you, Madam Chair and Members of the 
Committee. Again, State Senator Jackie Dingfelder and thank you 
for that question.
    The State of Oregon has made great investments in watershed 
health in both protecting and upgrading our watersheds.
    Mrs. Napolitano. I am not talking about the investments. I 
am talking about the outreach.
    Ms. Dingfelder. As part of those investments, we have 
funded grassroots Watershed Councils. We have over 90 Watershed 
Councils in the State of Oregon. I will say that Washington 
also does a lot of grassroots work.
    And one of the main themes that these grassroots 
organizations are doing is outreach in education with the 
business community, with the farming community, with the 
forestry industry, basically all the stakeholders that operate 
within these watersheds.
    I myself served as a Watershed Coordinator for several 
years prior to joining the State Senate, so I know first-hand 
about the work that is being done.
    Certainly, more can be done. Always, prevention is the best 
investment because it is a lot less expensive than cleaning up 
afterwards and restoring our rivers and stream sites.
    So we have 15 percent of our lottery funds in the State are 
dedicated towards this purpose currently.
    Mrs. Napolitano. But are you going after the potential 
polluters is my question.
    Ms. Dingfelder. Madam Chair and Committee Members, 
absolutely. We have a very aggressive program through our 
Department of Environmental Quality. We have a voluntary 
cleanup program and of course work very closely with USEPA in 
our Superfund program. We have a very aggressive Portland 
Harbor cleanup as well.
    Mrs. Napolitano. And I would ask the same question of the 
Supervisor and of any of the others who care to answer that, 
the cleanup part of the solution would be the potential 
responsible parties for that pollution. And sometimes they 
disappear because it is years down the road. However, there 
still has to be made an effort to be able to have that funding 
so EPA can do a better job.
    Anybody?
    Mr. Gioia. Just a note. There is always an aggressive goal 
of going after those who are the responsible parties. As you 
know, sometimes Federal law dictates how far local agencies can 
go. Sometimes it is State law.
    In the case of the oil spill that occurred in San Francisco 
Bay within the last couple of years, there is a lot of effort 
by a number of agencies to go after responsible parties. So 
that is always part of it.
    And in California, when the Regional Boards find polluters, 
that money gets used as well for restoration or public 
education or outreach of creek cleanups. So I know that one 
funding source we use for restoration are the fines that are 
levied against those who actually do the polluting.
    Mrs. Napolitano. Supervisor Gioia, you mentioned in your 
testimony the Bay Area's Regional Water Quality Control Board 
recently issued a regional stormwater permit for Bay Area 
counties. Could you elaborate some more on this permit and 
explain what the benefits of this approach are? And is there a 
way to incorporate the approach into the San Francisco Bay Area 
Estuary Program?
    Mr. Gioia. Yes, thank you for the question.
    I think we have been very progressive in the Bay Area about 
looking at how this development occurs in ways that have the 
least impact on the bay. And the Regional Water Quality Control 
Board came up with a permit which mandates that a number of 
actions be taken by local cities and counties when development 
gets approved.
    The positive part of that is the steps that must be taken 
will improve runoff and reduce pollution into the bay. The 
challenge is that it costs a significant amount of money to 
implement that rule. And so that burden is falling on local 
agencies, and any help from a Federal investment will allow all 
of us to achieve that goal quicker.
    For example, requirements with regard to impervious 
surfaces, that has been incorporated so that we don't have as 
much runoff into the bay. But again, because the Bay Area is 
also looking at having more infill development, what we have is 
a situation where the cost of these new regulations, which we 
all want to see, we are all looking at the best way to raise 
funds to implement those so that good development happens.
    And probably the most promising thing that has happened in 
the Bay Area there is the establishment of the San Francisco 
Bay Restoration Authority. A couple of years ago, Save San 
Francisco Bay Association did a study and basically recommended 
and sponsored this legislation that sets up one regional 
government agency in the Bay Area to work on wetland 
restoration and most importantly to raise local dollars to do 
that.
    I serve as Vice Chair of that and we are currently looking 
at polling to put a measure on the ballot in the Bay Area where 
local residents will participate in the funding of wetland 
restoration and any Federal investment will greatly, greatly 
increase the likelihood of local voters putting up local 
dollars, so the leverage factor is really important.
    Mrs. Napolitano. But do you have the ability to enforce?
    Mr. Gioia. We do. Yes. And the great work has already been 
done. The Estuary Partnerships plan. So we have done all the 
planning. We have done all the work. We just need some 
additional investment. And we are fully willing to have our 
local communities help foot the bill. We are not shying away 
from that. But the Federal investment will just be the third 
leg to the stool: Federal, State and local investment.
    Mrs. Napolitano. Many years ago, I remember going into San 
Francisco and seeing on the sidewalks in some areas the little 
fish stencil right on the drainage areas. I thought what a 
great idea, because people don't realize that that goes into 
the ocean and the rivers.
    Mr. Gioia. Right. And that has been one of the stormwater 
management policies, to educate the public to understand that 
what goes on the roadways into the storm drain system ends up 
in the bay.
    Mrs. Napolitano. Thank you.
    Mr. Boozman?
    Mr. Boozman. Thank you, Madam Chair.
    Mr. Gioia, in your testimony, you said it takes a two-
thirds vote from property owners in the Bay Area to increase 
fees or rates in order to provide improvements to stormwater. I 
guess we sit here week after week listening to testimony from 
all over the Country with areas like this. And I am from 
Arkansas, and we are blessed. We have a number of not 
estuaries, but we have a number of areas that are in need of 
this or that.
    And I guess our concern is that it is so difficult for you 
all to participate. It almost seems like we want Federal 
funding.
    Mr. Gioia. No, that is not what we are saying. I think 
first of all, as you know in many States, it is elected 
officials at the State and local level that can actually raise 
the fees to run stormwater programs. We are unique in 
California. It is just harder to raise those funds.
    We are not saying that we don't want to do that and the 
public wouldn't support that. We are just saying it takes a 
little more effort. And in fact, the effort to set up the 
Restoration Authority is a perfect example of where our local 
voters want to step forward and fund restoration activities 
themselves.
    It is just that there is a greater challenge, and what we 
are saying is we would be able to raise even more local dollars 
with the leverage of Federal investments. Because in many 
States, you don't need to go to the voters. You can get the 
leverage by having an elected official vote to increase fees, 
and then attract Federal dollars.
    We are just saying we have to show the public. It is a 
little higher threshold and we are prepared to do it, but we 
want to partner with the Federal agencies.
    Mr. Boozman. Of course, what is going to happen eventually, 
the EPA is going to make you do it.
    Mr. Gioia. On stormwater? You are talking now about the 
stormwater control issues? We already have requirements now 
with the regional permit to implement a higher standard. And 
local agencies are paying for it currently.
    Mr. Boozman. I am sorry. I don't mean to interrupt.
    Mr. Gioia. Yes, sure.
    Mr. Boozman. Again, I understand what you are saying. 
Again, in Arkansas the City Council can vote and raise the 
other. Do you have any alternative financing schemes that you 
have looked at in lieu of maybe not doing it in the 
conventional way?
    Mr. Gioia. There has been foundations and private 
businesses. And foundations have stepped forward to partially 
fund restoration projects around San Francisco Bay. They have 
also said we are willing to leverage our dollars with State, 
local and Federal dollars. We have issued bonds.
    So I think we are probably the only metropolitan area in 
the Country that has established this new mechanism to place 
one measure on the ballot in all nine counties among all 7.5 
million residents to be able to vote on this issue. So again, 
we are willing to step forward. That is new as well, but yes, 
we are being as creative as we can.
    Mr. Boozman. Okay. I think Ms. Kelly testified that there 
were $7 billion worth of economic benefits. Is that correct?
    Ms. Kelly. As I recall that part of my testimony, I think I 
was referring to something specific relative to the visitors 
impact.
    Mr. Boozman. Yes, exactly.
    Ms. Kelly. Just the visitors impact.
    Mr. Boozman. So I guess what I am saying is it is a 
tremendous resource that is generating a tremendous amount of 
money. And it is a challenge. I mean, we have to take care of 
it, but it is a tremendous revenue generator also for the area.
    Mr. Lumley, changes in the operation of some of the dams in 
the Columbia River Basin has led to progress in salmon 
recovery. How has this affected some of the other activities in 
the basin? For instance, has this led to loss of hydropower 
generation? And if so, how to residents in the basin now get 
their power?
    Mr. Lumley. I don't believe that there is a limitation on 
the amount of power that is being provided to the residents. 
There are alternative sources. I don't know if you have driven 
through the Columbia River in recent times.
    Mr. Boozman. No, if we could get on the stick and have a 
trip to check things out.
    Mr. Gioia. You have to come to San Francisco Bay as well.
    Mr. Boozman. I agree.
    Mrs. Napolitano. And put it to the Chair.
    Mr. Boozman. And there truly is no substitute for actually 
getting out and seeing the areas that you are talking about. I 
agree totally.
    Mr. Lumley. And I would welcome a field hearing. I would be 
happy to do whatever I can to assist you in that endeavor.
    If you drive through the Columbia River, you will see a 
series of dams and you will also see on the hilltops a series 
of wind turbines that produce wind power. So we have a 
plentiful source of renewable energy in the Pacific Northwest.
    There were changes to the way the hydropower system was 
managed, and it was a result of the listings of salmon under 
the Endangered Species Act, but it hasn't provided any kind of 
dramatic downfall of the amount of electricity that is being 
provided to the public in the Northwest.
    So we found ways to manage the Columbia River in a manner 
that is more protective of salmon, at the same time providing 
enough funds for a mitigation program to help keep the salmon 
from going extinct and to rebuild salmon runs.
    Mr. Boozman. Very good.
    Final question. Ms. Marriott, 40 percent of the funds are 
to go to the Estuary Partnership in the bill to manage 
implementation of the plan. Can you tell us a little bit more 
what that means?
    Ms. Marriott. Madam Chair, Members of the Committee, I 
would be happy to. The bill as it is currently drafted would 
set 40 percent of the future appropriations to the lower river. 
That is in part because the lower river through the National 
Estuary Program is a little bit further ahead in knowing where 
we need to invest those funds than the upper basin effort that 
EPA has been working on in the past four years. We are a little 
bit more ready to go, essentially.
    Where it would go, the first ask that we would make through 
an appropriations would request several million dollars to 
establish a network of monitoring at 26 sites for a full suite 
of contaminants. We would invest also with Oregon DEQ and 
Washington Department of Ecology in hosting take-back programs 
for farmers, pesticide take-back programs, pharmaceutical take-
back programs.
    We would do consumer education, Madam Chair, to help people 
understand how to dispose of these materials and then also talk 
about some of the impacts of our daily activities on stormwater 
runoff and some of those problems associated with that.
    That is where we would make our initial investment with 
these resources.
    Mr. Boozman. So would Oregon DEQ, would they help decide 
that and EPA? Or would that just be the pretty much at your 
all's discretion?
    Ms. Marriott. Madam Chair, Members of the Committee, the 
Estuary Partnership management plan was developed by a large 
stakeholder group. Our governing body is a stakeholder group 
that is comprised of Federal, State, local and tribal 
officials, as well as other public and private interests.
    We are accountable to EPA. That management plan is reviewed 
by them periodically to ensure that we are consistent with the 
Clean Water Act in helping them implement aspects of the Clean 
Water Act.
    The monitoring program in particular has been developed by 
a subset of our management group, our Science Work Group, which 
is comprised of over 40 scientists from our region, again from 
the public and private sectors. They are the ones who have 
looked at the data, looked at where the problems are, and put 
together a monitoring strategy for us.
    Mr. Boozman. Okay.
    Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Boozman.
    I would like to then ask a couple of questions of Mr. 
Lumley, if you wouldn't mind.
    In your testimony on page four, you write that water 
quality standards for toxics are traditionally based on 
consumption rates for non-Indians. Could you elaborate a little 
more on that and provide some kind of explanation of what you 
mean and what the public health implications are for the tribal 
members that you represent?
    I know there are a lot of contaminants. Have there been any 
assessments to review the health and welfare of the tribes and 
how they have been able to determine that?
    Mr. Lumley. Thank you for the question. Excellent question. 
Thank you.
    The criteria are established by Federal and State 
standards. It is for the general public. But there are certain 
subsets anywhere in the public that tend to consume natural 
resources more than others. The Columbia River Basin tribes are 
not the only group of individuals out there who consume large 
amounts of salmon. There are other ethnic groups that also 
consume large amounts. However, the tribes consume more than 
any other group that we are aware of, between 6 percent and 11 
times more.
    So the criteria that was established for the general public 
is not sufficient for protection of the tribes. The Umatilla 
Tribe in particular has been working with Oregon Department of 
Environmental Quality to change the State standards, and it 
looks like that will be increased by about 10 times, and that 
will be more protective for the tribal population.
    Salmon are a healthy source of omega 3 fatty acids, and I 
do not recommend to our members to stop eating fish. There 
might be different ways to consume them, but the Columbia 
Inter-Tribal Fish Commission is not a public health agency and 
I would defer any specific comments on public health to the 
tribes to get back to you through the process of having an open 
record on this hearing.
    But there are concerns about certain populations in 
specific areas where there is a high consumption in areas that 
are known to have high contaminants, and that is a public 
health concern for some of our tribes.
    Mrs. Napolitano. Has the BIA or any of the tribal entities 
had any reviews of the health effects that the contaminants 
might have on the tribes, especially the ones that consume more 
salmon than others?
    Mr. Lumley. I am not aware of any comprehensive study that 
looks at the salmon as a cause for, say, higher cancer rates. 
Perhaps we should be conducting more studies like that, but you 
have to look at the entire lifestyle and food that is consumed 
by tribes. You have to separate out salmon, which should be a 
very difficult study.
    There was talk about a phase three approach with the 
Environmental Protection Agency, but there didn't appear to be 
any funding to take it to that level.
    Mrs. Napolitano. And you also mentioned in your statement 
it is beginning to affect the smelt.
    Mr. Lumley. Contamination, not necessarily. Well, it may or 
may not be affecting smelt. My point, though, is that even 
though we are making progress for recovering salmon 
populations, our work isn't done yet for protecting all fishes 
in the Columbia River Basin. In fact, some are being still 
listed. The smelt is a population of fish that have just 
recently been listed by the Endangered Species Act. I fear that 
the Pacific lamprey, a traditional food of the tribes, might be 
listed next. So there is still quite a bit of work to do to 
recover fish in general.
    Mrs. Napolitano. My mind is slipping. The Bay Delta issue 
with the water pump up north of Sacramento has involved the 
endangered species of Delta smelt that has been diminishing 
rapidly and furiously. At first, it was thought that it was 
only the pumping that was killing the fish because they loved 
the cold water near the pump.
    It is now more evident that there are many other effects 
that are causing the decline of the Delta smelt. Part of it is 
the toxins, whether it is the different things that we have 
already mentioned; also, the warming of the waters; as well as 
the invasive species that have been introduced into the rivers.
    So many of those things have been found already in our 
area. You might want to maybe compare notes to see what might 
be the cause of some of the effects of the decline of the smelt 
in your area.
    But it is a problem and we need to get to the bottom of it 
and begin to look for whether it is the contaminants, the 
pesticides and the fertilizers, or the other toxins that are 
discharged into the river; whether it is untreated sewage, 
waste and many other things that we look at.
    So Ms. Kelly, in earlier testimony, EPA's Deputy Assistant 
Administrator stated that Federal efforts to improve water 
quality in the San Francisco Bay are ongoing, but serious 
environmental challenges still remain. And from your 
organization's perspective, why are ongoing State and Federal 
efforts not currently sufficient to address these impairments?
    Ms. Kelly. Thank you for the question, Madam Chairwoman.
    There are a couple of aspects to the question I just want 
to touch upon. One of the things that I think it is healthy for 
us to remember, in the program we sometimes feel like we are 
Sisyphus rolling the stone up the hill. But we are in an 
estuary that has had incredibly rapid development for the last 
20 years.
    And the fact that we actually have had improvements in a 
lot of areas, and yet had millions of more people within the 
watershed develop homes there and businesses there, and roads 
and networks, is actually I think something of a testament to 
how well we are actually doing in the face of some of these 
assaults on the environment. So that was one point I just 
wanted to stress.
    I think your question is more towards what are the things 
that we would do continuing now with new Federal funds. We 
mentioned, as the panel has mentioned, a couple of 
opportunities, especially relative to the 36,000 acres that are 
currently being held in public ownership are just waiting. They 
are permitted. They are waiting for funding to actually be 
restored, which will help with water quality. It will help in 
our efforts to protect our communities against a rising tide. 
And of course, it does wonderful things for the fish and 
critters that live in those environments, to restore those 
habitats. So that is a priority for us.
    We also have areas around the bay and the watershed where 
we know that there are toxic hot spots. I was mentioning 
earlier to someone there is an entire watershed, the Guadalupe 
Watershed in the southern part of San Francisco Bay had a 
historic mercury mine in the upper watershed of that bay. In 
fact, it is written in a wonderful book by Wallace Stegner, 
Angle of Repose.
    The beginning of that book actually takes place in this 
mercury mine, which is one of the largest we had in the Nation. 
During the gold mining, they needed mercury to extract the gold 
and it is part of the area that they got the mercury from.
    So we have this incredible legacy pollutant system, if you 
will, around the bay. And we know where some of those toxic hot 
spots are. We would like to get those sediments out of our 
rivers that are continuing to contribute sources even as we 
speak into the bay proper.
    So we have an opportunity to take action along those lines. 
And as Mr. Gioia mentioned, we do have this new regional 
permit. We are working. The Partnership is working with 101 bay 
cities on looking for ways to reduce the trash impact. In fact, 
we have a whole process right now and a project working with 
the bay cities to put trash capture devices around many of the 
cities to try to address that.
    So we are working in a number of fronts.
    Mrs. Napolitano. Thank you very much.
    And now for last questions, and thank you for bearing with 
me.
    Ms. Marriott, you mention in your testimony that the 
Columbia River watershed lies within the largest urban area in 
the State of Oregon, and the second largest urban area in the 
State of Washington.
    What is the Lower Columbia River Estuary Partnership 
currently doing to address the impacts of polluted stormwater 
runoff from these urbanized areas? And how do you envision a 
more robust program will aid in the effort to address 
stormwater runoff?
    Ms. Marriott. Madam Chair and Members of the Committee, 
thank you very much.
    One of our partners is the City of Portland, and another is 
Clark County and Vancouver on the Washington side of the river. 
We are working with them to I guess celebrate is a word we like 
to use, celebrate the development that is occurring that is 
what we call water quality friendly, where they are retaining 
stormwater onsite, preventing runoff, eliminating runoff of 
contaminated water into the streams that feed into the Columbia 
and the Columbia main stem.
    We do a lot of what we call peer to peer workshops so we 
will meet with developers and have developers that are aware of 
these and using these techniques, talk to their colleagues who 
aren't using them, to share how you do it, how it is cost-
effective, et cetera.
    The City of Portland is actually known nationally for its 
work in sustainability and green infrastructure, with eco-roofs 
and rain collection sites. Green Streets is a huge program as 
well.
    So we are trying to take those lessons and share them 
through our entire study area, both electronically using the 
Web to do that, as well as in our workshops throughout our city 
area.
    Mrs. Napolitano. Thank you so very much for answering that 
last question because to me the important question is how do we 
partner, what do we do?
    But to all the witnesses and to everybody here who have 
been so patient, thank you for your testimony. There will be an 
open period, I believe it is 10 business days, for any 
additional testimony and anybody who is of the Committee, of 
the panel, or of the general public who wishes to add to this 
hearing can submit it in writing to this Committee within 10 
business working days.
    So with that, thank you so very much everybody, and this 
hearing is now concluded.
    [Whereupon, at 5:08 p.m., the Subcommittee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





</pre></body></html>
